No. 20-1725

IN THE

Supreme Court of tlje flnttetr States;
DAVID SEIDEMANN, ET AL.,

Petitioners ,
v.

PROFESSIONAL STAFF CONGRESS LOCAL 2334, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeal for the Second Circuit

CERTIFICATE OF SERVICE

I, P. CASEY PITTS, a member of the Bar of this
Court , hereby certify per Supreme Court Rule 29.5(b)
and the parties’ agreement to accept electronic service , that on August 5, 2021, a true and correct
electronic copy of Respondents’ Brief In Opposition in
Seidemann, et al . v. Professional Staff Congress Local
2334, et al ., No. 20-1725, was sent , via electronic mail,
to the following e -mail addresses:
John J. Bursch
Bursch Law PLLC
9339 Cherry Valley SE , # 78
Caledonia , MI 49316
jbursch@ burschlaw.com
Counsel for Petitioners David Seidemann, et al .

2

I further certify that all parties required to be
served have been served.

Dated: August 5, 2021

P. Casey Pitts
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421- 7151
cpitts@altber.com

Counsel for Respondent
National Education Association
August 5, 2021

